HHS/OIG, Audit -"Oversight and Evaluation of the Fiscal Year 2005 Hospital Payment
Monitoring Program,"(A-03-05-00007)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Oversight and Evaluation of the Fiscal Year 2005 Hospital Payment
Monitoring Program," (A-03-05-00007)
November 10, 2005
Complete
Text of Report is available in PDF format (548 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether CMS ensured that its Hospital Payment Monitoring
Program (HPMP) contractors:  (1) had appropriate controls to ensure that sampling procedures,
admission-necessity and DRG validation screenings, and quality control reviews followed established
procedures and operated effectively; (2) implemented our prior recommendation; and (3) calculated
and reported all error amounts that the Quality Improvement Organizations (QIOs) identified
in the 10 percent sample.  CMS generally ensured that its HPMP contractors had appropriate
controls; however, CMS and its HPMP contractors incorrectly sampled long term care hospital
claims and did not complete the follow-up process for obtaining medical records.  CMS
did not ensure that an HPMP contractor implemented our recommendation to use CMS PRICER software
to accurately calculate error amounts for claims with DRGs revised by the QIOs.  Also,
prior to the conclusion of our fieldwork, CMS did not calculate and report any error amounts
for errors identified and reported by the QIOs during their quality control reviews of 10
percent of the claims that had passed the initial review.
We recommended that CMS direct its HPMP contractors to:  (1) establish appropriate
controls to select a long term care hospital sample in compliance with criteria, (2) use
CMS PRICER software, and (3) include in future rate calculations the error amounts identified
by the QIOs during their quality control reviews.  In response to our draft report,
CMS concurred with our first and third recommendation and stated that it would investigate
the cost benefits of the second.  We continue to believe that the HPMP contractor should
use CMSs PRICER software.